<html>
<title> - BUMPER TO BUMPER: THE NEED FOR A NATIONAL SURFACE TRANSPORTATION RESEARCH AGENDA</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                           BUMPER TO BUMPER:
                     THE NEED FOR A NATIONAL SURFACE
                     TRANSPORTATION RESEARCH AGENDA

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 11, 2019

                               __________

                           Serial No. 116-36

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov

                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-915PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------



              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  JENNIFFER GONZALEZ-COLON, Puerto 
CHARLIE CRIST, Florida                   Rico
SEAN CASTEN, Illinois                VACANCY
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                                 ------                                

                Subcommittee on Research and Technology

                HON. HALEY STEVENS, Michigan, Chairwoman
DANIEL LIPINSKI, Illinois            JIM BAIRD, Indiana, Ranking Member
MIKIE SHERRILL, New Jersey           ROGER MARSHALL, Kansas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
PAUL TONKO, New York                 ANTHONY GONZALEZ, Ohio
BEN McADAMS, Utah                    JAIME HERRERA BEUTLER, Washington
STEVE COHEN, Tennessee
BILL FOSTER, Illinois
                         
                         C  O  N  T  E  N  T  S

                             July 11, 2019

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Haley Stevens, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     7
    Written Statement............................................     8

Statement by Representative Jim Baird, Ranking Member, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    10
    Written Statement............................................    11

Written statement by Representative Eddie Bernice Johnson, 
  Chairwoman, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    12

                               Witnesses:

Mr. Tim Henkel, Chair, Research and Technology Coordinating 
  Committee, Transportation Research Board; and Assistant 
  Commissioner, Modal Planning and Program Management, Minnesota 
  Department of Transportation
    Oral Statement...............................................    13
    Written Statement............................................    16

Mr. Brian Ness, Director, Idaho Transportation Department; and 
  Chair, American Association of State Highway and Transportation 
  Officials Special Committee on Research and Innovation
    Oral Statement...............................................    27
    Written Statement............................................    29

Dr. Henry Liu, Director, Center for Connected and Automated 
  Transportation; and Professor, Department of Civil and 
  Environmental Engineering, University of Michigan, Ann Arbor
    Oral Statement...............................................    45
    Written Statement............................................    47

Dr. Darcy Bullock, Director, Joint Transportation Research 
  Program; and Lyles Family Professor, Department of Civil 
  Engineering, Purdue University
    Oral Statement...............................................    60
    Written Statement............................................    62

Discussion.......................................................    80

             Appendix I: Additional Material for the Record

Statement submitted by Representative Haley Stevens, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representative............    94

 
                           BUMPER TO BUMPER:
                    THE NEED FOR A NATIONAL SURFACE
                     TRANSPORTATION RESEARCH AGENDA

                              ----------                              


                        THURSDAY, JULY 11, 2019

                  House of Representatives,
           Subcommittee on Research and Technology,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to notice, at 3:28 p.m., in 
room 2318 of the Rayburn House Office Building, Hon. Haley 
Stevens [Chairwoman of the Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Stevens. This hearing will come to order. 
Without objection, the Chair is authorized to declare recess at 
any time. Good afternoon, and welcome to this hearing to review 
surface transportation research. We appreciate our expert 
witnesses for being here, and we really look forward to your 
testimony. The name of this hearing is ``Bumper to Bumper'' 
because it adequately describes the commute so many Americans 
experience on a daily basis, making their way on deteriorating 
roadways and bridges.
    The U.S. population has nearly doubled since construction 
of our national highway system, which was created in 1956, 
including the Nation's first border-to-border interstate 
highway in Michigan. And, in fact, Michigan has a very robust 
highway history, being the home to the Nation's first four-way 
red/yellow/green electric traffic light. That was erected at 
the corner of Woodward and Michigan Avenues in Detroit, and the 
light was the invention of a Detroit police officer, William 
Potts. All of our great innovations and efforts in surface 
transportation has led to, you know, incredible efforts, but it 
has also led to immense congestion, which cost the U.S. $305 
billion in 2017 alone from lost productivity, increased 
shipping costs, and wasted fuel. The American Society of Civil 
Engineers--this is often well cited and well known, but I'm 
going to say it in my opening testimony just to make sure it's 
fully absorbed--has given our Nation, the United States of 
America, a D+ in its most recent infrastructure report card, 
citing our transportation infrastructure woes.
    Transportation in other countries serves as a beacon of the 
future, and contributes to productivity and economic success. 
Conversely, America's transportation system is contributing to 
the demise of our human and climate health. Traffic fatalities 
have been steadily rising since 2011, after many years of 
declining. The fourth National Climate Assessment reported that 
in 2016, transportation became the top contributor to 
greenhouse gas emissions. In short, our current transportation 
infrastructure is in dire straits, and, despite that, it is 
shockingly underfunded. It is not surprising that research may 
not be the highest priority for transportation managers, who 
are just trying to keep their bridges from collapsing.
    However, investing in research and development (R&D) is 
still critical to developing smart, resilient, and cost-
effective transportation infrastructure for the future. Where 
would our auto industry be if DARPA (Defense Advanced Research 
Projects Agency) hadn't funded the grand challenge that 
catalyzed today's connected and automated vehicle (CAV) 
technologies? Unfortunately, the public sector investment in 
transportation research has been declining. For example, the 
Federal Highway Administration's exploratory Advanced Research 
Program, which focuses on longer-term, higher-risk research has 
been funded at only $6 million a year out of an overall R&D 
budget of $600 million. This research is critical to inform the 
policies of transportation agencies at all levels of government 
to make infrastructure investments that will help to grow 
innovation and transportation technologies, while keeping 
people safe, and reducing traffic congestion.
    We have a witness today from southeastern Michigan, Dr. 
Henry Liu, who is a Director at the University of Michigan 
Transportation Research Institute, which has been doing 
critical work for traffic control, driver safety, and future 
technology in my district, and all across the country. Welcome, 
Dr. Liu. University Transportation Centers (UTCs), such as the 
one at the University of Michigan, support excellent research, 
but they also struggle in balancing the long-term research 
goals with short-term, lower-risk research projects to meet the 
more immediate needs of cities and States. We want to ensure 
that transportation researchers with good ideas are able to get 
funding from the Department of Transportation (DOT) to pursue 
those ideas. By the way, our Science Committee's Subcommittee 
for Research and Technology does have some oversight and 
jurisdiction into the Department of Transportation R&D 
programs, so we must also ensure that federally funded research 
that does lead to promising innovations finds its way into 
practice.
    In the meantime, the private sector is investing heavily in 
autonomous vehicles and other forms of smart transportation 
technologies. While these companies partner with local and 
State governments, as well as the Department of Transportation 
to test their technologies in the real world, there is no 
national guiding vision for the smart infrastructure of the 
future. The private sector is waiting for us. There is also a 
lack of certainty in the regulatory environment, slowing 
innovation in these companies. I am so proud to represent my 
district, that is home to so many small and medium-sized 
manufacturers, and my claim to brag, the country's most robust 
automotive supply chain, and they're leaders in this auto 
industry, driving the success on innovation, safety, green and 
autonomous vehicle technologies as we push toward a vision of 
zero fatalities in auto accidents. That's a vision for us. The 
private sector excels at innovating when the markets are there, 
but companies will continue to be focused on short-term 
innovation cycles to do what is best for their workers and 
their bottom lines. We know that research feeds the pipeline of 
innovation and innovators. The Federal Government must redouble 
our efforts on mid- to long-term research, while continuing to 
partner with the private sector, and States, on shorter-term 
needs. It sounds like a best practice to me.
    The most recent surface transportation law, the FAST Act 
(Fixing America's Surface Transportation Act), expires in 
September 2020. It's coming. The Science Committee is looking 
forward to engaging with the transportation research community 
on recommendations for impending reauthorization, which is what 
we are doing here today. I look forward to exploring this long-
term vision for transportation research focused on finding 
solutions to existing challenges, and ensuring adequate 
planning and connectivity for the future, and we thank all of 
you for joining us here today.
    [The prepared statement of Chairwoman Stevens follows:]

    Good afternoon and welcome to this hearing to review 
surface transportation research. We appreciate our expert 
witnesses for being here and we look forward to your testimony.
    The name of this hearing is ``Bumper to Bumper'' because it 
adequately describes the commute so many Americans experience 
on a daily basis, making their way on deteriorating roads and 
bridges.
    The U.S. population has nearly doubled since construction 
of our National Highway System began in 1956 - including the 
nation's first border-to-border interstate highway in Michigan!
    This has led to immense congestion, which cost the U.S. 
$305 billion dollars in 2017 alone from lost productivity, 
increased shipping costs, and wasted fuel.
    The American Society of Civil Engineers gave our nation a 
D+ in its most recent infrastructure report card.
    Transportation in other countries serves as a beacon of the 
future and contributes to their productivity and economic 
success. Conversely, America's transportation system is 
contributing to the demise of human and climate health.
    Traffic fatalities have been steadily rising since 2011, 
after many years of declining.
    The Fourth National Climate Assessment reported that in 
2016, transportation became the top contributor to greenhouse 
gas emissions.
    In short, our current transportation infrastructure is in 
dire straits, and despite that, it is shockingly underfunded. 
It is not surprising that research may not be the highest 
priority for transportation managers who are just trying to 
keep their bridges from collapsing.
    However, investing in research and development is critical 
to developing smart, resilient, and cost-effective 
transportation infrastructure for the future.
    Where would our auto industry be if DARPA hadn't funded the 
grand challenge that catalyzed today's connected and automated 
vehicle technologies?
    Unfortunately, the public sector investment in 
transportation research has been declining. For example, the 
Federal Highway Administration's Exploratory Advanced Research 
program, which focuses on longer-term, higher risk research, 
has been funded at only $6 million per year out of an overall 
R&D budget of $600 million.
    This research is critical to inform the policies of 
transportation agencies at all levels of government to make 
infrastructure investments that will help to grown innovative 
transportation technologies while keeping people safe and 
reducing traffic congestion.
    We have a witness today from southeastern Michigan, Dr. 
Henry Liu, who is a Director at the University of Michigan 
Transportation Research Institute, which has been doing 
critical work for traffic control, driver safety and future 
technology in my district and across the country.
    University Transportation Centers, such as the one at the 
University of Michigan, support excellent research, but they 
also struggle in balancing long-term research goals with short-
term, lower-risk research projects to meet the more immediate 
needs of cities and states.
    We want to ensure that transportation researchers with good 
ideas are able to get funding from the Department of 
Transportation to pursue those ideas. We must also ensure that 
federally-funded research that does lead to promising 
innovations finds its way into practice.
    In the meantime, the private sector is investing heavily in 
autonomous vehicles and other forms of smart transportation 
technologies.
    While these companies partner with local and state 
governments as well as the Department of Transportation to test 
their technologies in the real world, there is no national 
guiding vision for the smart infrastructure of the future. 
There is also a lack of certainty in the regulatory 
environment, slowing innovation in these companies.
    I am proud to represent a district that is home to many of 
the small and medium manufacturers that are leaders in the 
supply chain of the U.S. auto industry, driving their success 
in innovative safety, green, and autonomous technologies.
    The private sector excels at innovating when the market 
drivers are there. But companies will continue to be focused on 
short-term innovation cycles to do what is best for their 
workers and their bottom lines.
    We know that research feeds the pipeline of innovation and 
innovators. The Federal government must redouble our efforts on 
mid to long-term research, while continuing to partner with the 
private sector and states on shorter-term needs.
    The most recent surface transportation law, the FAST Act, 
expires in September 2020. The Science Committee is looking 
forward to engaging with the transportation research community 
on recommendations for the impending reauthorization. I look 
forward to exploring a long-term vision for transportation 
research focused on finding solutions to existing challenges 
and ensuring adequate planning and connectivity for the future.
    Thank you.

    Chairwoman Stevens. Before I recognize our fabulous Ranking 
Member, Dr. Baird, for his opening statement, I would also like 
to take a minute to present for the record a statement from the 
Intelligent Transportation Society of America in support of 
increasing research and technology investments in the FAST Act. 
These are representatives from the private sector. Their voices 
are heard. So we will be submitting this letter for the record.
    And now the Chair recognizes Dr. Baird for an opening 
statement.
    Mr. Baird. Thank you, Chairwoman Stevens. Good afternoon, 
and thank you for convening this hearing to examine the U.S. 
Department of Transportation's surface transportation research, 
development, and technology. All of us on this Committee are 
aware of the issues which face our Nation's infrastructure. I 
see it regularly on my drives back and forth between Green 
Castle, Indiana and D.C., and the anticipated cost of its 
restoration. To effectively address these challenges, we must 
support and maintain a healthy, substantive research agenda 
that informs our State and local transportation initiatives. 
The research and development activities supported by the DOT 
are vital to the Nation's prosperity. They strengthen critical 
infrastructure, and enhance our economic competitiveness, and 
enrich our own way of life.
    In 2019, DOT will sponsor more than a billion dollars' 
worth of research, development, and technology deployment that 
will have an influence--the majority focused on surface modes 
of transportation. Advancement in materials and technology can 
help achieve long-term cost savings by reducing congestion, 
improving durability, and the lifespan of transportation 
projects. Today's hearing will be an opportunity for this 
Committee to examine our Nation's research, development, and 
technology priorities, and to learn more about policy issues 
for the future of surface transportation. It will also provide 
a chance to hear about research being conducted by the 
universities and the private sector, and how these advancements 
are being utilized by State and local governments.
    I'm glad to welcome Dr. Darcy Bullock from my home State of 
Indiana, who will talk about the work of the Joint 
Transportation Research Program (JTRP). JTRP is facilitating 
public-private partnerships among public agencies, academia, 
and industry to conduct research and testing that is solving 
real-world transportation problems in Indiana, and across the 
Nation. The innovative research and new technology advancements 
generated by JTRP has saved billions of dollars, and thousands 
of lives, in Indiana, as well as around the United States. For 
example, JTRP developed traffic signal performance measures 
that have been integrated into almost every new traffic signal 
control system in the United States. These new performance 
measures allow agency personnel to assess the quality of 
traffic signal performance, including identifying locations 
with high volume of red light running, and adjust accordingly 
to keep our roads safe, and running as smoothly as possible. 
The work done at JTRP is a great example of how science can 
yield solutions. It shows how efficient targeted research and 
development can help develop new innovative ideas and 
technologies that will make our transportation systems safer. 
Today's hearing is the first step for the Committee in 
considering and developing the next reauthorization of Federal 
surface transportation research, development, and technology 
programs.
    As we move through the process, this Committee must ask 
difficult questions to determine how best to address the issues 
facing our sagging and aging infrastructure within the 
limitations of our current budget environment. I hope today's 
hearing will help us guide DOT to set the R&D priorities, and 
chart a course for a strategic plan that will address our 
Nation's most urgent transportation needs. I would like to 
thank all of our witnesses for coming today, and for sharing 
your thoughts on how to improve our transportation networks and 
research activities. Thank you, and I yield back the balance of 
my time.
    [The prepared statement of Mr. Baird follows:]

    Good afternoon Chairwoman Stevens. Thank you for convening 
today's hearing to examine the U.S. Department of 
Transportation's (DOT) surface transportation research, 
development and technology activities.
    All of us on this Committee are aware of the issues with 
our nation's infrastructure - I see it regularly on my drives 
between Greencastle and D.C. - and the anticipated costs of its 
restoration.
    To effectively address these challenges, we must support 
and maintain a healthy, substantive research agenda that 
informs our state and local transportation initiatives.
    The research and development activities supported by the 
DOT are vital to the nation's prosperity - they strengthen 
critical infrastructure, enhance our economic competitiveness, 
and enrich our way of life.
    In 2019, DOT will sponsor more than $1 billion in research, 
development, and technology deployment activities, with the 
majority focused on surface modes of transportation.
    Advancements in materials and technology can help achieve 
long-term cost savings by reducing congestion and improving the 
durability and lifespan of transportation projects.
    Today's hearing will be an opportunity for this Committee 
to examine our nation's research, development and technology 
priorities and to learn more about important policy issues for 
the future of surface transportation.
    It will also provide a chance hear about research being 
conducted by universities and the private sector and how these 
advances are being utilized by state and local governments.
    I am glad to welcome Dr. Darcy Bullock, from my home state 
of Indiana, who will talk about the work of the Joint 
Transportation Research Program (JTRP). JTRP is facilitating 
public-private partnerships among public agencies, academia and 
industry to conduct research and testing, that is solving real 
world transportation problems in Indiana and across the nation.
    The innovative research and new knowledge generated by JTRP 
has saved billions of dollars and thousands of lives in Indiana 
and the United States.
    For example, JTRP developed traffic signal performance 
measures that have been integrated into almost every new 
traffic signal control systems in the United States.
    These ``Purdue Performance Measures'' allow agency 
personnel to assess the quality of traffic signal performance, 
including identifying locations with high volume of red light 
running, and adjust accordingly to keep our roads safe and 
running as smoothly as possible.
    The work done at JTRP is a great example of how science can 
yield solutions.
    It shows how efficient, targeted R&D can help develop new 
innovative ideas and technologies that will make our 
transportation systems safer.
    Today's hearing is the first step for this Committee in 
considering and developing the next reauthorization of federal 
surface transportation research, development and technology 
programs.
    As we move through this process, this Committee must ask 
difficult questions to determine how best to address the issues 
facing our ageing infrastructure within the limitations of our 
current budget environment.
    I hope today's hearing will help us guide DOT to set R&D 
priorities and chart a course for a strategic plan that will 
address our nation's most urgent transportation needs.
    I would like to thank all our witnesses for coming today 
and sharing your thoughts on how to improve our transportation 
networks and research activities.
    Thank you and I yield back the balance of my time.

    Chairwoman Stevens. If there are any other Members who wish 
to submit additional opening statements, your statements will 
be added to the record at this point.
    [The prepared statement of Chairwoman Johnson follows:]

    Thank you Chairwoman Stevens and Ranking Member Baird for 
holding this hearing, and thank you to the witnesses for your 
participation. In addition to being chairwoman of this 
Committee, I am also a senior Member of the Transportation and 
Infrastructure Committee. While there is great expertise about 
transportation issues on my other committee, the Science 
Committee is where we truly understand the importance of 
research to developing smart solutions to our nation's 
challenges. As we all know, our outdated transportation 
infrastructure is high on our list of challenges.
    My hometown of Dallas is a hub for air travel and freight. 
We have five interstate highways, we have the DART light rail, 
we are trying to build a high-speed rail line to Houston, and 
of course in Texas we love our cars. Dallas is even going to 
serve as a test site for the Uber Elevate project to develop 
flying cars. So we know a few things about inland modes of 
transportation. However, we have our share of transportation 
challenges. Dallas is the fifth-most-congested city in the 
nation, in large part because we are one of the most rapidly 
growing cities in the nation. As we continue to look for ways 
to increase safety and alleviate congestion in the near term, 
we must also set a course for smart transportation systems of 
the future. That will require investments in research and 
technology.
    I have long been a champion for the research and 
development programs at the Department of Transportation. These 
programs require strong partnerships with local and state 
governments to help identify the needs. They also involve 
strong partnerships with the private sector. However, we need a 
good balance between long-term research that looks over the 
horizon, and nearer-term research to address more immediate 
needs. We also need a transparent system in which the best 
ideas rise to the top for funding. Currently, the Department of 
Transportation has a 5-year strategic plan for research, 
development, and technology. The plan covers a lot of important 
topics in great detail. What it seems to lack is a coherent 
vision for the future of connected transportation systems. I am 
concerned that, absent such a vision, we are not sufficiently 
investing in the long-term research that will make our 
transportation systems more efficient, safer, environmentally 
friendly, and resilient.
    I look forward to hearing from today's expert panel of 
witnesses as we consider ideas for reauthorization of the 
research, development and technology programs at the Department 
of Transportation.
    Thank you and I yield back.

    Chairwoman Stevens. I'd also like to, at this time, 
introduce our full panel of witnesses.
    Our first witness is Mr. Timothy Henkel. Mr. Henkel is the 
Chair of the Research Coordinating Committee of the 
Transportation Research Board, and is also the Assistant 
Commissioner for Modal Planning and Program Management in the 
Minnesota Department of Transportation. In his role as 
Assistant Commissioner, he manages a number of offices, 
including the Offices of Transportation System Management, 
Transportation Data and Analysis and Research. He earned his 
bachelor's of science from--how do we say it?
    Mr. Henkel. Bemidji State University.
    Chairwoman Stevens. Bemidji State. And where's it located?
    Mr. Henkel. Northwestern Minnesota.
    Chairwoman Stevens. Fabulous. We're glad to learn a little 
bit more about Northwestern Minnesota here today. And a 
certificate in civil engineering and land surveying from 
Dunwoody College.
    Our next witness is Mr. Brian Ness. Mr. Ness is the 
Director of the Idaho Transportation Department, and Chair of 
the American Association of State Highway and Transportation 
Officials (AASHTO) Special Committee on Research and 
Innovation. He also serves on the Transportation Research 
Board's Executive Committee, and their Subcommittee on Planning 
and Policy Review. Mr. Ness earned a bachelor of science degree 
in civil engineering from Tri-State University, and a Master's 
Degree in Public Administration from Western Michigan 
University, so go Broncos.
    After Mr. Ness is officially Dr. Henry Liu. Dr. Liu is the 
Director of the Center for Connected and Automated 
Transportation, and is also Professor of Civil and 
Environmental Engineering at the University of Michigan, Ann 
Arbor. Dr. Liu's research focuses on transportation network 
monitoring, modeling, and control, as well as mobility and 
safety applications involving connected and automated vehicles. 
He received his bachelor's degree in automotive engineering 
from--you can say it--Tsinghua University. And where's it 
located?
    Dr. Liu. In Beijing.
    Chairwoman Stevens. Beijing? And his Ph.D. in civil and 
environmental engineering from the University of Wisconsin, 
Madison. Badgers.
    Our final witness is Dr. Darcy Bullock. Dr. Bullock is the 
Director of the Joint Transportation Research Program, and 
serves as the Lyles Family Professor in the Lyles School of 
Civil Engineering at Purdue. We've got some Big Ten love going 
on here, guys, OK? And we're an interconnected country, all 
right? I mean, this is why this highway conversation is not a 
snoozer. It's paramount to a lot of economic success, 
healthcare outcomes, and on.
    So Dr. Bullock has completed projects with the Federal 
Highway Administration National Cooperative Highway Research 
Program, National Science Foundation, and a number of State and 
local transportation agencies. He received a B.S. in civil 
engineering from the University of Vermont--that was easy to 
say--and an M.S. and Ph.D. in civil engineering from Carnegie 
Mellon University.
    As our witnesses should know, you will each have 5 minutes 
for your spoken testimony. Your written testimony will be 
included in the record for the hearing. When you have completed 
your spoken testimony, we will begin our questions. Each Member 
has 5 minutes to ask questions of the panel, and we're going to 
start with Mr. Henkel. Five minutes, sir.

                    TESTIMONY OF TIM HENKEL,

           CHAIR, RESEARCH AND TECHNOLOGY COORDINATING

               COMMITTEE, TRANSPORTATION RESEARCH

               BOARD; AND ASSISTANT COMMISSIONER,

             MODAL PLANNING AND PROGRAM MANAGEMENT,

             MINNESOTA DEPARTMENT OF TRANSPORTATION

    Mr. Henkel. Good afternoon, Chairwoman Stevens, Ranking 
Member Baird, and Members of the Subcommittee. I'm really 
pleased to have been invited to testify here today. I am an 
Assistant Commissioner for the Minnesota Department of 
Transportation, but I'm here because I'm also Chair of the 
National Academies' committee that serves as an independent 
advisor to the Federal Highway Administration (FHWA) on RD&T 
(research, development, and technology transfer). My testimony 
is based on the just-released National Academies' report 
entitled, ``The Vital Federal Role in Meeting the Highway 
Innovation Imperative''. This title reflects two equally 
important components. First, the imperatives transportation 
agencies have to innovate in order to address the rapid changes 
and large challenges we face in meeting the transportation 
needs of our communities. Second, the vital role of Federal 
RD&T programs in helping us address these challenges. I will 
briefly summarize our main findings, and then turn to the 
purpose of today's hearing, to review U.S. DOT surface 
transportation RD&T, research initiatives authorized in the 
FAST Act, and the need for a surface transportation research 
agenda.
    Our report assesses the FHWA and Intelligent Transportation 
Systems RD&T programs by applying congressional criteria for 
these programs intended to foster innovation and support its 
deployment. Our review includes the two other federally funded 
highway-related programs: State Planning and Research (SP&R) 
and University Transportation Centers Program. For perspective, 
the annual authorized Federal investment in highway-related 
RD&T across these four programs totals nearly $600 million, but 
this amount amounts to only 0.3 percent of the total annual 
expenditures by all levels of government to build, operate, and 
maintain roads and highways.
    We have two key findings. First, the FHWA and ITS JPO 
(Intelligent Transportation Systems Joint Program Office) RD&T 
programs are meeting the criteria established for them by 
Congress. They are effective, strategically organized programs 
that are helping States and local agencies meet the innovation 
imperative. Second, addressing emerging and fast-changing 
critical issues in transportation is making RD&T even more 
vital than before, but the ability of Federal programs to fully 
respond is constrained by available resources. Because highways 
move the dominant share of freight and passengers, they affect 
almost all aspects of the economy, society, and daily lives of 
Americans. Although the scope of the Federal RD&T highways 
programs are broad, the need to be comprehensive risks 
spreading resources too thinly. The FAST Act's inclusion of $80 
million annually for new pilot and demonstration programs 
without additional funding has increased this risk. Other 
insights from our report are included in my written testimony. 
I turn now to comment on how it informs the specific purpose of 
this hearing.
    Regarding RD&T activities, FHWA and ITS programs both 
foster innovation and assist the States and local agencies in 
implementing them. FHWA's technology transfer activities are 
particularly important to State and local agencies' traditional 
missions in the areas of operations, safety, materials, 
durability, and performance, asset management, resilience, and 
many other challenging issues that States and local agencies 
must manage on a day-to-day basis. However, we find that the 
portfolios of all four federally funded highway RD&T programs 
have opportunities to improve in two areas. First, we see need 
for greater investment in fundamental research to identify 
future potentially transformative improvements in highway 
transportation. Universities ought to be the best places for 
carrying out fundamental research, but the UTC program 
directives are resulting in an over-emphasis on applied 
research. Second, we find that expanded investment in 
evaluation research can help program managers and policymakers 
better understand how well RD&T programs are working at 
fostering innovation and how effective the innovations have 
been once implemented.
    Regarding the research provisions of the FAST Act, the 
structure and focus of the FHWA and ITS programs are clearly 
based on congressional authorizations and priorities. FHWA, for 
example, is carrying out R&D to help States implement the 
performance objectives of Congress established in MAP-21 
(Moving Ahead for Progress in the 21st Century Act) and the 
FAST Act for safety, congestion relief, freight movement, and 
asset management.
    Regarding a surface transportation research agenda, I 
return to the wide array of topics that States and local 
agencies need help with, and the corresponding breadth of the 
FHWA and ITS JPO program portfolios. The report identifies more 
RD&T topics that the committee would like to see FHWA address, 
but we're also aware of the resource constraints. Without 
additional funding, everything we'd like to add must come at 
the expense of the existing portfolio, and many of the existing 
initiatives are important and already inadequately funded. This 
concludes my oral remarks.
    [The prepared statement of Mr. Henkel follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                    TESTIMONY OF BRIAN NESS,

         DIRECTOR, IDAHO TRANSPORTATION DEPARTMENT; AND

          CHAIR, AMERICAN ASSOCIATION OF STATE HIGHWAY

         AND TRANSPORTATION OFFICIALS SPECIAL COMMITTEE

                   ON RESEARCH AND INNOVATION

    Mr. Ness. Chairwoman Stevens, and Members of the Research 
and Technology Subcommittee, thank you for the opportunity to 
appear before you today to discuss the importance of 
transportation research and innovation. I've worked in the 
transportation industry for more than 40 years--30 for the 
Michigan Department of Transportation, and the last 10 years as 
Director of the Idaho Transportation Department. I am also 
Chair of the American Association of State Highway and 
Transportation Officials Special Committee on Research and 
Innovation. When I became Chair, I implemented a new vision 
with four requirements. One, we must have a strategic approach 
to selecting research projects. Two, when possible, these 
projects should provide a positive return on investment. Three, 
research should translate into real results in the field, and 
four, the timeframes must be accelerated.
    In addition, the Transportation Research Board, TRB, 
identified 12 critical issues for 2019 that help guide the 
selection of research projects. The TRB's cooperative research 
program invests more than $60 million annually in research for 
airports, transit, freight, rail, safety, hazardous materials, 
and highways. State DOTs contribute $50 million annually to 
fund the projects we believe have a high return on investment, 
or provide the most benefits to taxpayers. States like Michigan 
are using tools provided by the Strategic Highway Research 
Program to find ways to build roads and bridges faster and more 
efficiently. The money they save allows them to fund more 
projects.
    In Idaho, my department developed a new concrete mix for 
linking bridge girders, then we partnered on a research project 
with a university to see how well it performs. The new mix 
reduces the concrete cost from between $10,000 and $15,000 per 
cubic yard to $800 per cubic yard, a cost reduction of more 
than 90 percent. In 2017, Indiana spent $3.9 million on 
research projects. They're reporting that five of those 
projects save their State just under $190 million. What a great 
return on investment, saving $46 for every $1 spent.
    Here is an example of how research translates into results 
in the field. A research project created a new tool called the 
Incident Command Field Guide. It includes these flash cards 
that highway crews carry in their trucks. When they come upon 
an incident, these cards allow them to quickly determine the 
right course of action for transportation workers responding to 
the incident, and help them coordinate better with emergency 
responders, saving time and lives. As Chair of the Research and 
Innovation Committee, I am sometimes asked, why do we spend 
money on research? The answer is simple. Research dollars allow 
DOTs to stretch their transportation money even further. What 
we save allows us to buy more steel, asphalt, and concrete. 
Research investments create long-term improvements taxpayers 
can actually see and benefit from.
    We at AASHTO recently published a white paper addressing 
reauthorization, and the need for continued funding for 
research and innovation programs to ensure a strong future for 
the transportation network. In addition to the cooperative 
research program, we recommend that the FAST Act 
reauthorization provide funding for the State Planning and 
Research Program and the Federal Research Technology and 
Education Program, among others, at their historic level, plus 
inflation. We also recommend $1 million to fund scoping for a 
third strategic research program. As you look at 
reauthorization, AASHTO urges you to ensure State flexibility 
by retaining the current multi-tiered research structure. Many 
research projects at the State and Federal level deliver a high 
return on investment, with significant benefits for commerce 
and the traveling public. Additional information can be found 
in my written testimony, and I thank you for the opportunity to 
address your Subcommittee.
    [The prepared statement of Mr. Ness follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                   TESTIMONY OF DR. HENRY LIU,

          DIRECTOR, CENTER FOR CONNECTED AND AUTOMATED

            TRANSPORTATION; AND PROFESSOR, DEPARTMENT

             OF CIVIL AND ENVIRONMENTAL ENGINEERING,

                UNIVERSITY OF MICHIGAN, ANN ARBOR

    Dr. Liu. Good afternoon Chairwoman Stevens, Ranking Member 
Baird, and the Members of the House Subcommittee on Research 
and Technology. Thank you for the opportunity to participate in 
today's hearing. My name is Henry Liu, and I am a professor in 
the Department of Civil and Environmental Engineering at the 
University of Michigan, and a research professor at the 
University Transportation Research Institute. I'm also the 
Director of U.S. Department of Transportation's Midwest 
Regional Center for Connected and Automated Transportation, or 
as we call it, CCAT. In my role, I'm fully aware of the U.S. 
leadership in evolution of transportation and mobility. I 
believe it is because ongoing support from the U.S. Government 
in funding research, and specifically funding University 
Transportation Centers like CCAT, that gives us this advantage. 
However, without increased funding that advantage is ours to 
lose.
    CCAT is a consortium of academic institutions in the 
Midwest, and its members were selected for their specific 
expertise. Our mission is to significantly impact the evolution 
of next-generation transportation systems. We do that by 
focusing on research, education, and workforce development, 
tech transfer, and outreach. Research conducted at CCAT 
includes modeling and implementation, enabling technologies, as 
well as policy and planning. We also have conducted research in 
the areas of traffic control and operations, infrastructure 
design and management, as well as human factors.
    A central feature of CCAT's approach is to test and 
demonstrate emerging technologies and concepts by leveraging 
the inaugural connected vehicle test environment, a unique 
leading laboratory that has equipped urban streets and highways 
with communication devices, in addition to thousands of 
connected vehicles. We also leverage Mcity, the world's first 
closed test facility for connected and automated vehicles, or 
CAVs, developed at University of Michigan. Since 2017, we have 
held two global symposiums on connected and automated vehicles, 
events that have brought together industry and academia to 
discuss the path toward a national deployment. We also hold 
quarterly seminars that dive into specific topics, such as 
efficient freight movement, the state of our infrastructure, 
and smart communities.
    The UTC program has provided funding to a wide variety of 
centers since the late 1980s. There are currently 37 UTCs 
collaborating with more than 120 universities throughout the 
country. In addition to Federal funds, these centers leverage 
funding from private, State, and local sponsors to conduct 
research, develop the future workforce, and test innovations 
which make our transportation safer, more efficient, and more 
secure. Clearly more research work needs to be done for a 
connected and automated transportation system, and more support 
needs to be available, and we need a national transportation 
research agenda. We need to continue to invest in advanced 
technology development, particularly pre-competitive 
technologies that enable large-scale CAV deployment. It is also 
critical that we focus on infrastructure. Beyond just fixing 
the roads and bridges, we need to deploy a connected 
infrastructure network that will accelerate vehicle automation. 
We need to better understand the direct consequences of vehicle 
automation, such as impacts on employment, social equity, and 
accessibility, as well as the indirect consequences, such as 
population distribution, property value, and other aspects of 
the economy.
    University Transportation Centers, like CCAT, are funded 
through the FAST Act. The FAST Act is essential to supporting 
research infrastructure development and the rapid deployment of 
these technologies across the country. In order to ensure the 
continued U.S. leadership in transportation, it is more 
important than ever for Congress to reauthorize the UTC program 
with increased funding. Thank you again for the opportunity to 
testify today, and I'm happy to answer any questions you might 
have.
    [The prepared statement of Dr. Liu follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                 TESTIMONY OF DR. DARCY BULLOCK,

        DIRECTOR, JOINT TRANSPORTATION RESEARCH PROGRAM;

         AND LYLES FAMILY PROFESSOR, DEPARTMENT OF CIVIL

                 ENGINEERING, PURDUE UNIVERSITY

    Dr. Bullock. Chairwoman Stevens, Ranking Member Baird, and 
Members of the Committee, my name is Darcy Bullock. I am a 
Professor of Civil Engineering at Purdue University, and serve 
as the Director of the Joint Transportation Research Program. I 
appreciate the opportunity to share with you some of the recent 
transportation research implementation initiatives we have 
underway in Indiana, as well as my perspective on future 
opportunities. JTRP, as Ranking Member Baird indicated, is a 
partnership between INDOT (Indiana Department of 
Transportation) and Purdue. I'm going to talk about a couple 
recent projects that we've done, and then wrap up with what I 
think are some of the future opportunities.
    The first one I just want to talk about is a project that I 
would argue is maybe low tech, but one of those high returns on 
SP&R projects, is--we partnered with the Indiana State Police, 
and we looked at what were the opportunities to improve the 
collection rate on invoicing insurance companies for damage to 
State property. And, as you see there, those are the net 
collection increase after we implemented that program. And Neil 
has been good--we just recently published this in TRB a couple 
years ago, and then this just got published in the most recent 
issue of TR News, and I'll put a couple plugs in for TRB, 
because I think it's a huge networking opportunity, but that's 
one of those forums that, as researchers, we share some of our 
implementation successes with.
    The other one I want to talk about, and, actually, this 
involves Minnesota, Henry previously was at the University of 
Minnesota, so--has some ties to this is some work that we have 
done in the pooled-fund study process. It's a process that 
Federal highway has that States can get together and work on 
projects, and Ranking Member Baird alluded to that at the 
beginning of that. That has since gone on, and has been adopted 
by the Federal Highway Administration, Every Day Counts, EDC4, 
initiative, and is widely deployed. And that's one of those 
nice, organic initiatives where we pull together agencies, 
academics, and the private sector throughout the project to--so 
that it was implementation ready at the end.
    And then the last comment, before I jump into future 
opportunities--public land grant universities--important for us 
to disseminate these results. We work hard to put all of these 
out, not only just in journal publications, but in terms of 
open access, downloads. That's a map of the downloads across 
the world. And I think I'm particularly proud of that 
distribution of commercial, academic, and government downloads. 
There's a fairly strong interest in its balance, and a strong 
interest in that commercial privatization.
    So, looking forward, I would say that the simple tagline 
that I'd like to leave you with, and kind of--is that I believe 
our current vehicles know more about the infrastructure 
condition than we know as operating agencies. You know, for a 
long time, as civil engineers, we built the infrastructure, and 
the auto industry has built the cars. Henry has talked about 
this connected and autonomous opportunity. It is right at the 
grasp of implementation, and I think, you know, just look out 
there. Our traditional feedback mechanisms are skid marks on 
the road, people calling in crash reports. If you think about, 
when your cars are--you're driving your cars, hard-braking 
events can be recorded. We already have accelerometers on those 
cars for airbags. If you drive a car that has lane departure 
warning on it, and you see where it can't see the lane lines, 
that is really good information to feed back to State DOTs.
    More importantly, as we move to the connected and 
autonomous world, we've got 50 States out there, the auto 
industry's got eyes on all of that, so we've got to find some 
new ways to work on that. Reduced visibility signs, there's 
vegetation growing on the lower left corner, the cars are going 
to see that. Winter road conditions. We'd like to think our 
winter forecasts are perfect, but they're not, and so many 
times we wait for crashes to pile up. If we wait--if we can see 
the traction control and ABS (anti-lock braking system) kicking 
in, that would be incredibly important. So I guess my 
concluding comment is, if any of you are--when you're driving 
the car, and you see some of these indications coming in that 
are giving you feedback, and--man, wouldn't it be nice if we 
were providing that information to State DOTs? And I think that 
just sets the stage for how we can work together.
    So, with that, I will just maybe make one concluding 
comment that fusing that probe data that we get, in terms of 
travel time and congestion that some of the previous speakers 
talked about, with our freight mobility map, is going to give 
us really strong insight into where we should make our 
strategic investments in capacity improvements, and perhaps 
intermodal facility. So, with that, I will conclude my remarks.
    [The prepared statement of Dr. Bullock follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Stevens. Well, at this point we're going to 
begin our first round of questions, and the Chair is going to 
recognize herself for 5 minutes.
    Our hearing, ``Bumper to Bumper: The Need for a National 
Surface Transportation Research Agenda,'' poses the question 
how do we actually catalyze a national surface transportation 
research agenda? How are we catalyzing that? By dialoguing, and 
hearing from you, who are on the ground, who are managing 
departments, who represent the intersection of research at the 
university level to the States, or regional agencies, which you 
happen to represent.
    I think the history is important, and if I can indulge 
Michigan for just another bit here, my State, the State that 
bore the automobile, the State that, you know, the first mile 
of concrete highway was created in 1909. 1912, the Nation's 
first highway materials testing lab at the University of 
Michigan. 1918, the traffic light. 1923, the Nation's first 
superhighway. 1942, the Nation's first depressed urban 
expressway. 1960, the Nation's first State to complete a border 
to border interstate, I-94, running 205 miles from Detroit to 
New Buffalo. 1977, the Nation's first--this is a good one--the 
Nation's first bicycle path to be constructed alongside an 
interstate freeway.
    This was innovation in action as our country was catalyzing 
21st-century capitalism through our industrial might. We have 
somehow accepted stagnation. We've accepted underinvestment. 
And, Dr. Bullock, I want to pick up where you left off, because 
I came to Congress out of an IOT research lab, and I think the 
IOT, the Internet of Things, the mobility, the 
interconnectedness of data, and the partners that we are 
leaving out here, are really important to hone in on.
    So what you had just said about our cars knowing more about 
our roadways than we do, is there something that we could do 
with automotive and the companies? Is there a partnership? 
Where are they in the conversation, and how can we fix that?
    Dr. Bullock. [no audio]. Automotive industry, and the 
public agencies, are starting to realize, I would say. We are 
aggressively working right now, as the State of Indiana, to 
engage with them. For the last 5 years the Indiana Department 
of Transportation buys 1-minute real-time probe data that gives 
us the speed performance on our interstate. But that's not 
enough. We're not happy with that. We want to know where are 
the potholes? We want to know where the hard-braking events 
are. We want to know where are the traction-control events? 
Where are we not seeing the lines? So I think we have got to 
now start articulating those use cases so that then we can 
frame those in a way that doesn't compromise privacy, but then 
provides an improved data set so we can make more informed 
decisions.
    Chairwoman Stevens. They want to know as well. The auto 
companies want to know. I mean, they are pushing this vision of 
hypermobility and interconnectedness. Dr. Liu, it begs the 
question from kind of your standpoint on research out of the 
University Transportation Centers, moving federally funded 
research into practice, how do we do this tech transfer? How do 
we continue to catalyze tech transfer activities, or have they 
increased since the FAST Act was enacted? Anything you can shed 
light on there for us?
    Dr. Liu. Yes. I think there's a lot we can do, and at the 
university we are the best to conduct research on fundamental 
research, and we also do applied research. And to continue your 
Michigan first, the Mcity is the first test track for connected 
automated vehicles in the world, and that's in 2015. This goes 
into the 21st century.
    So this is actually one of the examples that capitalize on 
university research, and lead the way for implementation and 
deployment of connected automated vehicles. So at--every 
university has this technology transfer office, and we work 
with myself, but we also work with the technology transfer 
office to license our technology to the industry.
    So I think to--at the university, I think we want to do 
fundamental research, high-risk, high-reward, and then we have 
an established mechanism to convert this research--transfer--
transform this research into the practice.
    Chairwoman Stevens. Thank you. Thank you very much. And 
with that Dr. Baird was joking around that I was only going to 
use 3 minutes of my time, but I'm using all of it, and now I'm 
going to pass it over to him. I'm going to recognize him for 
his 5 minutes of questioning.
    Mr. Baird. Thank you, Madam Chairwoman. And, Dr. Bullock, 
I'm going to give you the opportunity to boiler up and help me 
counter all of this Michigan first stuff, if you will. Anyway, 
my question really deals with having you elaborate maybe on 
this Joint Transportation Research Program, and how that 
partnership between Purdue and the Indiana Department of 
Transportation works, and how's this program performance 
evaluated, in your opinion? Because I'm going to have some 
additional questions to that, how does the collaboration offer 
greater opportunity, and how important such collaboration can 
be to bring and address the emerging area of connect and 
autonomous vehicles. So pick out any one of those questions 
you'd like and elaborate, and especially those that are first 
over Michigan, if you will.
    Dr. Bullock. Well, I don't know. I think there's an immense 
amount of collaboration with the Joint Transportation Research 
Program, whether it be within Indiana, or with peer States. And 
so the Joint Transportation Research Program is our vehicle 
that we use for managing the SPR research funds. And I say 
joint because this--we go back 82 years, and, you know, I'm--
we're building on the success of my predecessors. They've 
established strong dialog between Purdue University and INDOT 
on two levels. I think we're very tightly engaged with not only 
the executive staff, but the folks that are doing the work. And 
sometimes it's the folks running the pothole patching, 
sometimes it's the engineers, sometimes it's the policy, 
sometimes it's the Commissioner. And so that joint part is 
critical. I think that they facilitate teamwork.
    In terms of evaluation, I was proud--I think it was--Mr. 
Ness referred to some of the return on investment. Probably for 
the last 10 or 15 years, our executive staff has put a lot of 
pressure on us, good pressure, to demonstrate return on 
investment. I will tell you we are not 100 percent successful 
in all of our projects, and so, as he pointed out, there's a 
few winners that have some significant returns, but sometimes 
we learn the projects that don't work, and what doesn't work, 
sometimes learning not to do that is just as important as 
learning what to do. So I hope I've given you a reasonable, 
succinct description of a couple of those points.
    Dr. Liu. I just want to mention one thing. The Center for 
Connected Automated Transportation has Purdue also as a member 
institution, so it's not a competition. It's a collaboration.
    Mr. Ness. And I would not--Representative, yes, I would not 
leave Tri-State University, from the fine State of Indiana, 
that helped springboard my education in that discussion either. 
But I'd also like to address that you cannot always have a 
positive return on investment. I agree that we learn a lot when 
maybe something doesn't work, so we know what not to do, and 
there's a lot of research that's done on behavioral-type 
activities, when you're driving, and how you behave behind the 
wheel. How does that research help drive down deaths on the 
highway? And how do you measure that, how much did that 
contribute? You may not always get that positive return on 
investment.
    However, I think, as you make the tough decisions as--how 
you distribute tax dollars across the country into various 
programs, you have to understand that a good research program 
can provide significant returns on investments. And if you can 
invest in new materials and innovative products, then you're 
able to spread your dollars that you have for construction that 
much further.
    Mr. Henkel. I might add that the committee, as we looked at 
the Federal programs, including the ITS JPO, found that these 
programs are designed to serve the States and local governments 
that own and operate the highways, and must deploy innovations 
to ensure these highways serve the interest of society and the 
economy. Our report notes that more than 80 percent of the 
FHWA's HRD--RD&T activities identify State DOTs as partners, so 
it's important to continue that partnership, as demonstrated by 
FHWA, and the programs that they implement today.
    Mr. Baird. Thank you, and my time is up, and I yield back, 
Madam Chair.
    Chairwoman Stevens. Thank you. And now I'd like to turn 5 
minutes of questioning over to Dr. Lipinski, who is an expert 
in this field, and I imagine is going to ask some really great 
questions.
    Mr. Lipinski. Boy, that's a lot of pressure you're putting 
on me now. I want to thank the Chairwoman for holding this 
hearing, and thank the witnesses for their testimony. 
Chairwoman is correct in that I have done a lot of work in the 
area of connected autonomous vehicles, work in terms of work 
here in Congress, in trying to get us on a good path when it 
comes to research, and getting these cars on the road, seeing 
what the Federal Government can do. In the FAST Act I was able 
to get provisions in there on connected autonomous vehicles, 
including--University Transportation Center focused on the 
technology, a new interagency policy working group at the DOT 
to promote the development of autonomous connected vehicles, 
and a GAO (Government Accountability Office) study of connected 
autonomous vehicle policy.
    So I wanted to ask Dr. Liu, where are we now in this 
regard, and what can we here in Congress be doing? I sit both 
on this Committee and also on the Transportation and 
Infrastructure Committee. What should we be doing in Congress 
to really promote better research, more research, and what we 
can do to get autonomous and connected vehicles, you know, out 
there on the road, and all the benefits? You know, we want to 
make sure they're safe. There are a great number of benefits 
that can come from autonomous connected vehicles, so what 
should we be doing going forward?
    Dr. Liu. I should say we are at the starting point of this 
transportation evolution with connected automated vehicles, so 
we have a long way to go. We need not only science and 
engineers, but also political, legal, and social experts. So--
this connected automated vehicle technology is going to change 
the society. As I mentioned, this may have implications in 
terms of employment, even population distribution, and other 
aspects of the economy. So there--a lot of research needs to be 
done, and--not only on the technology development, but also on 
the consequences related with vehicle automation.
    So in terms of research, I think we need to focus on, first 
of all, the technology development. There are a lot of 
technology that need to develop, and--because we have not 
really solved the issues related with safe and efficient 
deployment of connected automated vehicles. For example, we 
know how we test a regular human-driven vehicle, in terms of 
the safety standard. We don't really know how to test a 
connected automated vehicle in terms of--yet, how to test the 
intelligence of an autonomous vehicle. That's still an open 
question. And that's the pre-competitive research I mentioned 
in my testimony. We need to work on those.
    The second thing I would say, infrastructure is very, very 
important. Connected automated vehicles, they can't really just 
rely upon their own sensors. They need to have help coming from 
the infrastructure. A connected infrastructure network will 
accelerate the vehicle automation, in terms of their 
deployment. So connectivity on our infrastructure is the key 
also for the large-scale deployment. So all these issues we 
need to work on, and we need to--these--the issues, once it's 
resolved, will help us to accelerate the deployment of this 
connected automated vehicle technology.
    I do want to say that this is--although this is at the 
starting point of this technology, there is a lot of interest, 
and it is a hot topic not only in the U.S., but around the 
world. So to ensure U.S. leadership on connected automated 
vehicle technology, we need to increase our funding support on 
these issues.
    Mr. Lipinski. Thank you. And I want to add I think it's 
very important that, on this Committee, on this Subcommittee, 
that we take our role in the reauthorization of the FAST Act 
very seriously, and we take a lead in the research side of that 
bill. So I want to emphasize that, and those issues that you 
raised, Dr. Liu, are very critical, and we need to make sure we 
are not only looking on those, but acting on those. I'm afraid 
that we move too slowly here, and we need to make sure that we 
do everything that we can to make sure we are not slowing down 
the research in the advancement of connected autonomous 
vehicles here in our country. And we want our country to be the 
leader in the world on this really transformative technology, 
so thank you. Yield back.
    Chairwoman Stevens. The Chair now recognizes Mr. Balderson 
for 5 minutes of questioning.
    Mr. Balderson. Thank you, Chairwoman Stevens, and I want to 
thank you and Ranking Member Baird for inviting, I won't kid 
around, two Big Ten universities for the hearing today, but you 
left the best one out, and that would be the one that I 
represent. I'm sorry, Dr. Liu, but that would be Ohio State 
University, thank you all for being here today, and I 
appreciate your input on this. And I, like Representative 
Lipinski, sit on the Transportation and Infrastructure 
Committee, so thank you, Chairwoman Stevens, for putting this 
together.
    My first question will be for Dr. Liu and Dr. Bullock. Last 
Congress I sent a letter supporting Ohio State University's 
application to be a UTC, focusing on the congestion relief. The 
centers at both Purdue and Michigan are researching ways to 
improve our Nation's highways and byways. These centers are 
crucial parts of the transportation and research world. Could 
each of you discuss the expected impacts of expanding the 
number and role of the UTCs in the next surface transportation 
reauthorization? And, Dr. Liu, you may go first.
    Dr. Liu. In my written testimony, I mention that in the 
last funding competition, the USDOT received more than 200 
highly qualified proposals, and we can only fund 37 of those. 
So a lot of highly qualified proposals were declined, and yet 
we have lots of questions--open questions, particularly in 
transportation evolution area. So I--in my--also in my written 
testimony, I mentioned that I urged the Congress to double the 
funding for UTCs because we have many qualified--university 
qualified researchers to do--work--research work, so that can 
accelerate the deployment of the connected automated vehicle 
technology. So I think we are at the stage that we urge the 
Congress to reauthorize the UTC with increased funding.
    Dr. Bullock. So I would agree with Henry that increased 
funding in the UTC is important, and I would suggest--based on 
what I presented earlier, one of the near-term opportunities I 
see is, if we can have some--I would say challenge the 
universities and the auto companies to work together. And I 
listed five, and there might be more, but give us a way to, 
while protecting privacy, see where the potholes, see where the 
hard braking, see where the obscure pavement markings, see 
where the obscured signs are, see where those winter markings 
are. The advantage of doing--getting the auto companies 
involved early is that is a nice, scalable approach. We've got 
some immediate returns to the State DOTs, and it will establish 
some fundamental building blocks that will serve us well for 
this connected and autonomous world.
    Mr. Balderson. OK. Thank you both very much. In the time 
remaining I have, I have one more question. Dr. Ness, many 
States are attempting to subdue the effects of crumbling 
infrastructure on their own. Noting Federal support is often 
lacking, as has been mentioned on this Committee today, as a 
Member of the Transportation and Infrastructure Committee, I 
have worked closely with Transportation on its priorities for 
the upcoming Surface Transportation reauthorization. Can you 
provide examples of some commonsense reforms that are important 
to your State that you would like to see as the House prepares 
for this transportation bill? Specifically in terms of 
research--but feel free to expand outside whenever you feel.
    Mr. Ness. Yes, Representative, I believe that some of the 
regulatory reforms that have already been started go a long 
ways to helping us stretch our dollars. The more flexibility 
that we have as States, the better we are to make decisions 
that are specific to transportation in our area. I would also 
highlight too, the fact that not only just the regulatory 
reform, but just the flexibility that we could have in funding, 
and to keep formula funding, keep the existing formula in place 
so we're able to make those decisions. But I think that's the 
biggest thing that I would promote, is allowing us to make 
decisions at that State level.
    Mr. Balderson. Thank you very much. Madam Chair, I yield 
back my remaining time.
    Chairwoman Stevens. Thank you, Mr. Balderson. At this time 
the Chair would like to recognize Mr. Tonko for 5 minutes of 
questioning.
    Mr. Tonko. Thank you, Chairwoman, and thank you to our 
Ranking Member also the two of you for hosting this hearing, 
which I think is very valuable, and welcome to our witnesses. 
As an engineer, I recognize that improving our transportation 
system is key to improving daily life for Americans, and 
creating long-term economic growth across New York State, my 
home State, and our country. I am an especially strong 
supporter of investing in rail, since it is an extremely 
energy-efficient way to move goods, while also being 
environmentally friendly. As a Nation, we need to look at all 
the pieces involved in surface transportation, and examine how 
we can increase efficiency and reliability, reduce congestion, 
and, in turn, reduce emissions.
    One way we will accomplish this objective, I believe, is 
through federally funded research and partnerships. For 
example, freight transportation is critical to the economic 
vitality of the United States, and has a huge footprint in the 
district that I represent, in the capital region of New York. 
Throughout Upstate New York there is an incredible bit of 
research happening on this subject. In New York's 20th 
District, which I proudly represent, RPI's (Rensselaer 
Polytechnic Institute's) Center for Infrastructure, 
Transportation, and Environment is conducting research on this 
subject in collaboration, and with funding, with DOE 
(Department of Energy) and DOT. Professor Holguin-Veras, who 
leads this research, has shared that freight transportation and 
delivery, is at the crossroads where several challenges 
collide. It has significant impact on our economy, it produces 
large amounts of CO<INF>2</INF> emissions, it creates traffic 
congestion and gridlock, and can come with high cost to 
producers, deliverers and consumers. So RPI's research examines 
how changing the behavior supply chains could reduce energy 
consumption.
    Through a project in New York City, the team at RPI found 
that simply delivering goods overnight, instead of during 
daytime traffic, reduced a truck's emissions by an estimated 
factor of some 65 percent. They found that off-hour deliveries 
can also reduce the cost of transporting freight by some 45 
percent. So my question to all of our witnesses is the 
following. Are DOE and DOT and other agency investments in 
freight optimization producing worthwhile results, like the 
significant reductions illustrated here, and should we provide 
more funding for freight-optimization research? Anyone?
    Mr. Henkel. I'll start.
    Mr. Tonko. Thank you, Mr. Henkel.
    Mr. Henkel. The RTCC (Research and Technology Coordinating 
Committee) looked at this issue from the perspective of 
Congress' criteria, as well as the critical issues report that 
was generated recently by TRB. As we looked across the 
criteria, we found that the Federal program was sound in 
meeting the requirements that Congress put forward and 
established to ensure that the research ongoing was meeting 
your requirements. Part of the research that is ongoing is in 
the freight area. The RTCC also looked at examples of 
additional research that could be funded, if additional funding 
were made available, using the critical report, and found that 
one of the areas does confirm, Congressman, that the freight 
area is a need.
    In fact, the report specifically says that models and data 
collection is one of the areas that would be a need in the 
freight area. It suggests that better estimates for potential 
for freight mode shift, while considering expansion of the 
interstate and inner city highways, is a potential area for 
focus.
    Mr. Tonko. Thank you, Mr. Henkel. Solutions require us to 
work together in public-private collaborations. That should 
include our cities and our local communities, the private 
sector, the government, and certainly research universities. In 
particular I strongly support increased funding to the 
university transportation programs. Dr. Liu, you noted that in 
the 2016 UTC competition more than 200 highly qualified 
responses were received, and funding was not available for a 
significant number of these highly qualified applications. 
Would you please explain more? Why is the UTC program worthy of 
increased investment?
    Dr. Liu. The research--I think the research universities 
are the fundamental pillar, in terms of our scientific advance 
in transportation research. So the UTCs is also where the 
transportation innovations really begins. It's also where we 
educate our next-generation of working--workforces. So that's 
why I think, although the current UTC involves 120 
universities, and I think it will be good to increase the 
funding, to increase the number of the UTCs and--so that more 
research can be done, and more work--future workforce can be 
educated.
    Mr. Tonko. Thank you. Thank you, Dr. Liu, and with that, 
Chairwoman Stevens, I yield back.
    Chairwoman Stevens. Thank you. And now the Chair will 
recognize Mr. McAdams for 5 minutes of questioning. Thank you.
    Mr. McAdams. Thank you, Chair Stevens, and Ranking Member 
Baird, for holding this vital hearing. I think about the 
implementation of the previous surface transportation bill, the 
2015 FAST Act, and the ways that we can work collaboratively to 
produce the next important legislation that will shape the 
future of transportation. So I come from the State of Utah. 
Utah is the fastest-growing State in the country, and the bulk 
of that growth is in the Salt Lake and Utah valleys, so 
thinking creatively and collaboratively about what our 
transportation future looks like is imperative to the success 
of that growth.
    Part of the success that Utah has seen already is because 
of the cooperative participation with Federal, State, regional 
groups, our NPOs, and local transportation agencies, but also 
collaboration across modes of transportation. Our DOT, and DOT 
director, works very well with our transit authority, and--so 
that, I think is important. And then one of the things that I 
think is important that we're seeking to implement is to make 
sure that those decisions are also done in connection with land 
use decisions, and land use planning. So are moving toward a 
framework that we call Access to Opportunity. Rather than just 
looking at investing in transportation for transportation's 
sake, we're recognizing what we're trying to do is to connect 
individuals to opportunity. Sometimes that is improvements in 
transportation, sometimes it's designating land use, so we 
would bring the jobs closer to where the people are, or where 
the recreation opportunities to where the people are, or the 
housing close to where the jobs are.
    So I'd love--just a couple of questions. If any of you on 
the panel, but particularly Mr. Ness from--Western State, like 
my neighbor to the north of us, if you could give me an example 
of how the FAST Act provides a model for success when it comes 
to collaboration between your State agency and other partners, 
and then also across modes of transportation?
    Mr. Ness. I think to be successful you have to look across 
all modes of transportation, you have to partner with those at 
all levels. And--particularly when you think about the research 
program, and I highlighted in my remarks the need for a multi-
tiered research program. And that way it isn't one group, or 
one person having the say in how we spend our research dollars. 
Just like, through the FAST Act, it isn't one group, the 
Federal Government, or the State, or the local, saying, here's 
how we're going to spend our money. It is a collaborative 
effort, and all modes of transportation are interconnected, and 
it's about getting people and goods from point A to point B. 
And, for example, that may involve taking my car to the 
airport, flying to Washington, D.C., taking a train to get to 
where I need to go, or even walking to where I need to be 
from--once I get settled in my hotel. So I think everything's 
interconnected. Certainly the more collaboration you have, the 
better decisions you can make, because you have more data in 
order to make those decisions, based on that input.
    Mr. McAdams. And I might add, I think it's even when you 
take it down to the local level that's--taking a bike share to 
the transit stop, or, you know, the--to get it to connect to a 
car, or--multi-modal even at the very local level, from 
pedestrian, to bicycle, to transit, to road, and all of that, I 
think, is important.
    I'm interested, for the panelists, if there are ways that 
we can improve collaboration the next time around between our 
Federal and State local partners. One of the challenges that I 
saw in my previous role, I was a county executive, Mayor of 
Salt Lake County, and sometimes those funding streams are 
fairly rigid. There's funding for roads, there's funding for 
transit.
    And so, as we try to think more comprehensively, just 
connecting people to opportunities, and the funding streams 
aren't as maybe fluid as we want to think in our land use 
planning and transportation planning, are there ways that we 
can further improve collaboration between Federal and State 
partners, and also across modes of transportation, and also to 
make sure that our transportation investments from the Federal 
level better align with local land use decisions?
    Mr. Ness. I'll--Representative, I'll address the one about 
collaboration. And I found in my department that when you have 
shared performance goals, then you have a vested interest in 
the entire team trying to make that work, instead of individual 
performance goals. And I've suggested to the Federal Highway 
Administration that, for the States to be successful, Federal 
Highway Administration has to be successful, and vice versa, 
so, therefore, the goals of the Federal Highway Administration 
should be the same as those--as the States that are 
implementing their program.
    Mr. McAdams. Thank you. And it looks like I'm about out of 
time, but I just want to lay the marker down that the other 
piece that I'm interested in the reauthorization is--we 
obviously need strong environmental regulation review, but how 
can the next surface transportation bill work to streamline 
permitting, and ease the regulatory approval process to meet 
our transportation needs? Are there areas where this regulatory 
approval process is duplicative? And that costs money and time 
to our State and local partners. So, with that, I'm out of 
time. Madam Chair, if maybe you'll take a couple of seconds, if 
you will?
    Mr. Ness. I'll be very----
    Mr. McAdams. OK.
    Mr. Ness [continuing]. Quick on that, and I think sometimes 
it's a series of processes. This one starts, and when it 
finishes, the next one starts, and I think we can do that more 
in parallel.
    Mr. McAdams. That's an issue that we were trying to--I know 
that we tried to address the last time around, and that it was 
very frustrating to me at the local level too, is this 
sequential approval process, sometimes approvals that were 
inconsistent with each other, and it just cost time, and money, 
and frustration at the local level. Thank you, and, Madam 
Chair, I yield back.
    Chairwoman Stevens. We're always happy to grant a little 
extra time to a mayor----
    Mr. McAdams. All right.
    Chairwoman Stevens [continuing]. Who happens to now serve 
in Congress. And, with that, the Chair would now like to 
recognize Ms. Sherrill for 5 minutes of questioning.
    Ms. Sherrill. Thank you. The Gateway Tunnel Project is one 
of the most important infrastructure projects in the Nation, as 
you may know. It's updating the two over 100-year-old Hudson 
Rail tunnels that in and out of Manhattan from North Jersey. 
Those tunnels were damaged in Superstorm Sandy. And so it 
involves rails, and bridge projects, and includes refurbishment 
of a deteriorating tunnel, and it provides the only direct 
train connection between New Jersey and Manhattan. It's a 
critical link for Amtrak's Northeast Corridor, connecting 8 
States and Washington, D.C., and it services routes throughout 
20 States. So failure of this railway would be catastrophic for 
the region, but recently the Department of Transportation has 
given the project a medium-low rating, disqualifying it for 
funding from its Capital Investment Grant Program. And so I was 
wondering if you could speak to, how the Department of 
Transportation incorporates Federal research into evaluating 
the importance of projects, and assigning ratings to national 
transportation projects? That's to all of you.
    Mr. Ness. Representative, I will go back to my initial 
opening remarks, where I said, at least from an AASHTO 
perspective, on our Research and Innovation Committee, we have 
four vision goals that we want to accomplish. One is that there 
is that strategic approach, and, on that strategic approach, 
one of those ways is to look at the 12 critical issues 
developed by the Transportation Research Board for 
transportation. The second is, when possible, these--that 
project should have a positive return on investment. That 
research, we need to translate that into real results in the 
field, and that we accelerate those timeframes because the 
technology is moving faster than the research now. So I'll come 
back to that as--when we prioritize research projects from the 
States' perspective through AASHTO, those are the guiding 
principles that we use.
    Ms. Sherrill. So I couldn't agree more that, you know, 
Federal agencies have to be good stewards of the taxpayer 
dollars, and making infrastructure investments, we need to make 
sure we're getting a good return on our investment. And so the 
Gateway Tunnel Project, again, is unique among service 
transportation projects in its complexity, its cost, and the 
vast numbers of travelers counting on it. It's only a matter of 
time until the current tunnels suffer from a failure that would 
significantly harm our entire country's economy.
    So as we look at infrastructure project scenarios, like New 
Jersey and New York, that may carry a high price tag, but will 
have a high rate of return, when you consider that region to be 
one of the most highly populous and highly productive 
metropolitan areas in the country, can you tell me, what 
research do your institutions or agencies engage in to help 
assess the value, and help us understand how we can maximize 
our Federal research investments? And I hate to keep Mr. Ness 
on the hot seat. Does anyone have any thoughts on how we assess 
our investments into our infrastructure? Mr. Ness, since you 
seem to be----
    Mr. Ness. I think it's just a matter of--obviously, across 
the country, there's less resources than there are needs out 
there, so you have to determine what are your priorities, where 
do you target your investments. And, again, I come back to 
where do we get our greatest return on the dollar, where do we 
provide the greatest economic opportunities by investing in 
transportation in an area. They're not easy decisions to make, 
that--you have to balance--and I think there has to be some 
geographic balance, because there's needs all across my State 
in Idaho, and certainly across the country. So I also think we 
need to think of our transportation investments in a nationwide 
type program.
    And, for example, if you enjoy a baked potato with your 
steak, or whatever you eat at dinner, certainly you want to 
make sure that we can get that baked potato--or that potato 
from Idaho to your plate. So those types of things--and 
certainly there are--from the dairy industry in New York, where 
you want to get those products across the country. So I think, 
again, we've got to prioritize based on a national system, not 
as individual States with here's our priorities.
    Ms. Sherrill. My time has expired. Thank you very much.
    Chairwoman Stevens. Thank you. And now we'll recognize Dr. 
Foster for 5 minutes of questioning.
    Mr. Foster. Well, thank you. And I'd like to just sort of 
continue this discussion for a moment, that what we don't have 
is a national metric which looks at the return on investment in 
a geographically neutral place, because the system that we have 
clearly represents the Senate more than the House, in the sense 
that, you know, if you look at the spending formulas, they 
clearly have the fingerprints of the Senate, where 17 percent 
of the U.S. population has a voting majority in the U.S. 
Senate. But that's not the subject of this hearing.
    It was actually in this room, about a decade ago, that 
ARPA-E (Advanced Research Projects Agency-Energy) was conceived 
and passed, and I was wondering if any of you have input or 
thoughts on the usefulness of ARPA-T, this would be something 
dedicated for transformative technology changes. And, you know, 
I have spent most of my career as a high energy particle 
physicist, and spent a whole lot of time looking at cheap ways 
of tunneling, and was astounded at the number of things that 
have been talked about, and never tested in, for example, high-
speed tunneling. You know, everything from using particle beams 
to blast away at the rock to just this long list of things, 
some of which, in terms of specific energy of excavation, look 
like they'd be very competitive with conventional tunnel boring 
machines, and yet had never been looked at. And I'm wondering, 
has there ever been a systematic home for this sort of stuff, 
and do you think there might be a need for one?
    Mr. Henkel. Congressman, I can respond from the perspective 
of the committee that's reviewed the Federal program. As we've 
reviewed the Federal program, we looked across the innovation 
cycle, from fundamental research all the way through deployment 
and evaluation. The fit for this kind of research is in the 
early stages, so that we can develop transformative dialogs, as 
well as transformative technologies. As we looked at the 
Federal program, we found it to be sound across the innovation 
cycle, but we found it to need additional investment in that 
early stage area.
    We found that the UTC program could be an avenue for some 
of that big thinking, but we generally thought that the overall 
program, the Federal program, was in need of an infusion so 
that it would be able to continue the important research that 
it's doing in the applied arena, but grow in the area of 
fundamental research, and strengthen evaluation, so when those 
transformative technologies are thought through, and are moving 
through applied into deployment, the Federal program has the 
capability, the effectiveness, to be able to respond and 
deliver on those thoughts.
    Mr. Foster. And I'd also like to have a shout out to the 
National Academies, that what you do on the transportation--one 
of the many things clogging up my inbox are the list of all the 
recent publications. I tend to pay most attention to human 
genetic engineering, or, you know, nuclear physics, but I also, 
from time to time, make it through at least the executive 
summaries of what is produced, and they really seem to be 
useful documents for someone who's actually, you know, boots on 
the ground in some state having access to that sort of high-
quality summary of the state-of-the-art. So I want to just give 
you a shout out about that.
    Let's see, Dr. Liu, you know, one of the many hats I wear 
around here--I'm the co-chair of the task force on artificial 
intelligence in Financial Services that we've set up, and, you 
know, obviously AI in cars is going to be something that will 
have to be fed with a huge amount of data, and some of this 
data is potentially very privacy-invading. You know, a typical 
self-driving car has, you know, five or six very high-quality 
cameras that are going out. The footage will be archived for 
product liability reasons, or training, in the case of near-
miss accidents, and stuff like this. And I believe it won't be 
long before law enforcement starts subpoenaing that very 
interesting footage, so that when there's a drive-by shooting 
in some area, you'll electronically subpoena all that. Are the 
discussions that have to happen around that sort of application 
happening? Or are you going to be in a situation where you're 
maybe technologically ready to deploy a lot of this, you know, 
self-driving vehicles, but you don't have the legal certainty 
regarding privacy?
    Dr. Liu. Congressman, you reached a very, very important 
issue, and that's the issue--that's--I also mentioned that, in 
terms of the research we will need to do. And--so the 
deployment of connected automated vehicles is not only an 
engineering product. It's actually much more than that. It 
involves both--not only social, legal, and--but also political 
aspects of things. So cybersecurity, as well as privacy 
protection, I think it's very, very important, and in our UTC--
it's part of our UTC's research portfolio to look into those. 
We have research projects to look into those also.
    Mr. Foster. And the discussions involving privacy, where 
are those happening? Because they have to have many people in 
the room, not just, you know, automotive engineers.
    Dr. Liu. Right. So--and that's what I'm saying. This--the 
UTC also have--I think have a mechanism that we can bring 
together the expert from different aspects, and we have a 
technology advisory committee which we can bring together all 
these people from not only just engineers, but also the other 
experts together to look into these issues. So privacy issues 
obviously is very, very important for us.
    Mr. Foster. Thank you. I'm over time here, and yield back.
    Chairwoman Stevens. Well, before we bring this hearing to a 
close, we, obviously, want to thank our witnesses again. This 
has been a great conversation, great contribution to the work 
that we're going to be doing, particularly around reauthorizing 
the FAST Act, and chartering a vision for the Nation's surface 
transportation research agenda. It's obvious that the built 
environment, the veins of our commercial activity, and what our 
highways represent for our Nation, a land of sea to shining 
sea, and all of its complexities, needs a long-term strategic 
vision, needs the experts at the table.
    And it also plays an interesting role for the Federal 
Government to partner in a very concerted and catalytic way to 
bring researchers, State actors, municipal actors, and private 
industry, together to come up with solutions to be the best, to 
be the leader in the free world for this type of 
transportation. And while we're certainly inspired by the 
environmental opportunities that rail provides, and it's one of 
our other components of the built environment, we can still 
achieve environmental sustainability measures through our 
highways, vis-a-vis our highways, and what that means for 
everyday consumers. And as we continue to inch toward the 
plight of zero accidents, and zero emissions, and a cleaner, 
fairer, and more complete vision of our Nation's transportation 
sector, and the role, the critical role, that research will 
forever play in achieving those goals.
    So the record is going to remain open for the next 2 weeks 
for additional statements from the Members, and for any 
additional questions the Committee may ask of its witnesses. 
And, at this time, our incredible witnesses are excused, and 
the hearing is now adjourned.
    [Whereupon, at 4:51 p.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
